XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1300 I STREET
SACRAMENTO, CA 95814

Telephone: (916) 210-6269
E-Mail: Sam.Siegel@doj.ca.gov

March 20, 2020
Via Electronic Filing System
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

California, et al., v. Texas, et al., No. 19-840
Texas, et al. v. California, et al., No. 19-1019

Dear Mr. Harris:
I represent the state petitioners in No. 19-840, who are respondents in No.
19-1019. The Court granted the petitions in these cases on March 2, 2020. In order
to accommodate scheduling difficulties and the press of other cases, the parties
jointly request an extension of the deadlines for the merits-stage briefs and the joint
appendix in these cases, as follows:
May 6, 2020:

Joint Appendix; opening briefs of the petitioners in No.
19-840 and the U.S. House of Representatives respondent
on the questions presented by the petition in No. 19-840.

May 13, 2020:

Amicus curiae briefs in support of the petitioners in No.
19-840 or in support of no party, regardless of issue.

June 25, 2020:

Consolidated opening briefs of the state and individual
respondents in No. 19-840 (cross-petitioners in No. 191019) and of the federal respondents in No. 19-840 on the
questions presented in both cases.

July 2, 2020:

Amicus curiae briefs in support of the state and
individual respondents in No. 19-840 (cross-petitioners in
No. 19-1019) or the federal respondents in No. 19-840,
regardless of issue.

July 29, 2020:

Consolidated response and reply briefs of the petitioners
in No. 19-840 and the U.S. House of Representatives
respondent on the questions presented in both cases.

March 20, 2020
Page 2
August 18, 2020:

Reply briefs for the cross-petitioners in No. 19-1019
limited to the question of the geographic scope of any
remedial order.

All parties have agreed to this proposed schedule, which would allow the
Court to hold oral argument during the October 2020 sitting.
Please let me know if you need any additional information.
Sincerely,
s/ Samuel P. Siegel
SAMUEL P. SIEGEL
Deputy Solicitor General
For
cc:

XAVIER BECERRA
Attorney General

Douglas N. Letter
General Counsel
U.S. House of Representatives
Noel J. Francisco
Solicitor General
United States Department of Justice
Kyle D. Hawkins
Solicitor General
Office of the Attorney General
State of Texas
Robert Henneke
Texas Public Policy Foundation
Center for the American Future

